STATE OF MICHIGAN
DEPARTMENT OF ATTORNEY GENERAL

P.O. BOX 30212
LANSING, MICHIGAN 48909
DANA NESSEL
ATTORNEY GENERAL

April 21, 2021

Scott Harris, Clerk
United States Supreme Court
One First Street, N.E.
Washington, D.C. 20543
Re:

Edwards v. Burt, Warden
United States Supreme Court No. 20-1218

Dear Mr. Harris:
Consistent with Supreme Court Rule 30.4, Respondent respectfully requests
that the time in which to file their brief in opposition be extended 30 days. The
Respondent’s answer is due on or before May 3, 2021. An additional 30 days would
make the brief due on Wednesday, June 2, 2021.
Respondent seeks this extension due to numerous competing deadlines and
obligations as well as the shifting responsibilities during the COVID-19 crisis.
Respondent’s counsel, as Michigan Solicitor General, is in charge of all appellate
litigation for the State of Michigan and in this capacity is drafting and reviewing
other briefs.
Sincerely,

FAH:hlg
Enclosure (Proof of Service)
cc:
Alan Evan Schoenfeld

Fadwa A. Hammoud
Solicitor General
517-335-7628

